  Department of Health and Human Services
                     OFFICE OF 

                INSPECTOR GENERAL 





WEST VIRGINIA IMPROPERLY CLAIMED 

  SOME PERSONAL CARE SERVICES 

 UNDER ITS MEDICAID STATE PLAN 




    Inquiries about this report may be addressed to the Office ofPublic Affairs at 

                             PUblic.Affgirs@oig.hhs.gov. 





                                                     Stephen Virbitsky 

                                                 Regional Inspector General 


                                                        October 2012 

                                                        A-03-11-00204 

,........-------------.·· ·-1
                                                                                                                I!
                                                                                                                !

                          Office ofInspector General
                                            http:// oig.hhs.gov



  The mission of the Office ofInspector General (OIG), as mandated by Public Law 95-452, as amended, is
  to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
  health and welfare of beneficiaries served by those programs. This statutory mission is carried out
  through a nationwide network of audits, investigations, and inspections conducted by the following
  operating components:

  Office ofAudit Services

  The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
  its own audit resources or by overseeing audit work done by others. Audits examine the performance of
  HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
  intended to provide independent assessments of HHS programs and operations. These assessments help
  reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS .

  Office ofEvaluation and Inspections
  The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
  and the public with timely, useful, and reliable information on significant issues. These evaluations focus
  on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
  departmental programs. To promote impact, OEI reports also present practical recommendations for
  improving program operations.

  Office ofInvestigations
  The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations offraud and
  misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
  States and the District of Columbia, 01 utilizes its resources by actively coordinating with the Department
  ofJustice and other Federal, State, and local law enforcement authorities. The investigative efforts of 01
  often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

  Office ofCounsel to the Inspector General
  The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
  advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
  operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
  programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
  connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
  renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
  other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
  authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App ., requires
 that GIG post its publicly available reports on the GIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of GAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In West Virginia, the Department of Health and
Human Resources’ Bureau for Medical Services (the State agency) administers the Medicaid
program.

The State agency and providers must comply with certain Federal and State requirements for
personal care services under the Medicaid State plan. Personal care services must be: (1)
authorized by a physician pursuant to a plan of treatment or, at the State agency’s option,
otherwise authorized in accordance with a service plan approved by the State agency; (2)
provided by an individual who is qualified to provide such services and who is not the recipient’s
legally responsible relative; and (3) furnished in the beneficiary’s home or, at the State agency’s
option, at another location. Services are not allowable for individuals who are inpatients at a
hospital or residents of a nursing facility, an intermediate care facility for individuals with
intellectual disabilities, or an institution for mental diseases.

The Medicaid State plan authorizes personal care services “to assist an eligible individual to
perform activities of daily living.” These services include assisting with personal hygiene,
dressing, feeding, and performing nutritional and environmental support functions and health-
related tasks. Licensed registered nurses provide assessment and oversight services and direct-
care staff provide the hands-on personal care services.

The State agency has an interagency agreement with the Bureau of Senior Services to manage
the Personal Care Program for the elderly and for disabled individuals. Within the Department
of Health and Human Resources, the Bureau for Children and Families and Bureau of Behavioral
Health and Health Facilities manage personal care services for children and adults with
developmental disabilities and individuals with known or suspected behavioral health disorders.

From July 1, 2008, through June 30, 2010, the State agency claimed $82,918,496 ($67,387,046
Federal share) in personal care and nurse assessment and oversight services under the State plan.
These claims did not include personal care service claims submitted by providers under West
Virginia’s Aged and Disabled Waiver program. We audited those claims separately.

OBJECTIVE

Our objective was to determine whether the State agency complied with certain Federal and State
requirements when it claimed Medicaid personal care and nurse assessment and oversight
services under the State plan.



                                                 i
SUMMARY OF FINDINGS 


The State agency did not comply with Federal and State requirements for some of the personal
care services and nurse assessment and oversight services in our sample. Of the 100 beneficiary-
months in our sample, 82 complied with Federal and State requirements, but 18 did not. Of the
18 noncompliant beneficiary-months, 3 contained more than 1 deficiency. The table summarizes
the deficiencies noted and the number of beneficiary-months that contained each type of
deficiency.

                  Summary of Deficiencies in Sampled Beneficiary Months

                                                                  Number of
                        Type of Deficiency                    Beneficiary-Months
          Services Not Supported By Documentation                     10
          Services Not In Accordance with Plan of Care                 7
          No Plan of Care                                              1
          Personal Care Aide Not Qualified                             1
          Beneficiary Not Eligible                                     1
          Beneficiary in a Nursing Home                                1

The State agency did not sufficiently monitor personal care service claims submitted by
providers to ensure compliance with Federal and State requirements. As a result, some
beneficiary-months included deficiencies.

Using our sample results, we estimated that the State agency improperly claimed $360,539 in
Federal Medicaid reimbursement.

RECOMMENDATIONS

We recommend that the State agency:

      refund $360,539 to the Federal Government and

      improve its monitoring of providers to ensure compliance with Federal and State
       requirements for personal care services.

STATE AGENCY COMMENTS

In its written comments on our report, the State agency concurred with our recommendations and
described corrective actions that it had taken or planned to take.

The State agency’s comments are presented in their entirety as Appendix C.




                                               ii
                                                  TABLE OF CONTENTS



                                                                                                                                     Page



INTRODUCTION.......................................................................................................................1 


          BACKGROUND ..............................................................................................................1


              West Virginia’s Medicaid Program ......................................................................1 

              Personal Care Services in West Virginia ..............................................................1 

              Providers of Personal Care Services .....................................................................2 

              Federal and State Requirements Related to Personal Care Services ....................2 

              Audits of the State Agency’s Costs for Personal Care Services ...........................3 


          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................3 

               Objective ...............................................................................................................3 

               Scope ....................................................................................................................3 

               Methodology .........................................................................................................4 


FINDINGS AND RECOMMENDATIONS .............................................................................4



          SERVICES NOT SUPPORTED BY DOCUMENTATION ............................................5


          SERVICES NOT IN ACCORDANCE WITH PLAN OF CARE ....................................6 


          NO PLAN OF CARE........................................................................................................6 


          PERSONAL CARE AIDE NOT QUALIFIED ...............................................................7



          BENEFICIARY NOT ELIGIBLE ....................................................................................7



          BENEFICIARY IN A NURSING HOME .......................................................................7



          ESTIMATE OF THE UNALLOWABLE AMOUNT ......................................................8



          RECOMMENDATIONS ..................................................................................................8 


          STATE AGENCY COMMENTS.....................................................................................8



APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

West Virginia’s Medicaid Program

In West Virginia, the Department of Health and Human Resources’ Bureau for Medical Services
(the State agency) administers the Medicaid program. The Federal Government’s share of costs
is known as the Federal medical assistance percentage (FMAP). The American Recovery and
Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted February 17, 2009,
authorized the States to temporarily receive a higher FMAP (enhanced rate) during a specified
recession adjustment period. From July 1, 2008, to June 30, 2010, West Virginia’s FMAP
ranged from 73.73 percent to 83.05 percent.

Personal Care Services in West Virginia

Supplement 2 to Attachments 3.1-A and 3.1-B of the Medicaid State plan authorizes personal
care services “to assist an eligible individual to perform activities of daily living.” These
services include assisting with personal hygiene, dressing, and feeding and performing
nutritional and environmental support functions and health-related tasks. Licensed registered
nurses provide assessment and oversight services, including development of the plan of care.
Direct-care staff (personal care aides) provide hands-on personal care services.

Eligible individuals receive personal care services through a number of State programs:

   		 The Personal Care program, managed by the Bureau of Senior Services, provides 

       personal care services for the elderly and for disabled individuals. 


   		 The Specialized Family Care program, managed by the Bureau for Children and 

       Families, provides personal care services for children and adults with intellectual 

       disabilities and/or developmental disabilities. 


   		 Various behavioral health rehabilitation programs, managed by the Bureau of Behavioral
       Health and Health Facilities, provide personal care services for individuals with a known
       or suspected behavioral health disorders.




                                                1

The State agency has an interagency agreement with the Bureau of Senior Services to manage
the Personal Care program. The Bureau for Children and Families and the Bureau of Behavioral
Health and Health Facilities are part of the Department of Health and Human Resources.

Providers of Personal Care Services

Personal care agencies, specialized family care providers, and comprehensive behavioral health
centers provide personal care services. Chapter 5171 of West Virginia Medicaid Provider
Manual (Provider Manual) defines the State’s policies and procedures for personal care
providers in the Medicaid program. The Provider Manual establishes the State agency’s
requirement for payment of personal care services provided to eligible Medicaid beneficiaries.
Providers must determine the personal care needs of an individual and ensure that personal care
aides receive the required basic and annual training.

Federal and State Requirements Related to Personal Care Services

The State agency and providers must comply with certain Federal and State requirements in
determining whether beneficiaries are eligible for personal care services. Section 1905(a)(24) of
the Act and implementing Federal regulations (42 CFR § 440.167), requires that personal care
services be:

      		 authorized by a physician pursuant to a plan of treatment or, at the State agency’s option,
          otherwise authorized in accordance with a service plan approved by the State agency;

           provided by an individual who is qualified to provide such services and who is not the
           recipient’s legally responsible relative; and

      		 furnished in the beneficiary’s home or, at the State agency’s option, at another location,
          provided that services are not allowable for individuals who are inpatients at a hospital or
          residents of a nursing facility, an intermediate care facility for individuals with
          intellectual disabilities,2 or an institution for mental diseases.

Federal cost principles (2 CFR part 225) establish principles and standards for determining
allowable costs incurred by State and local governments under Federal awards.3 The cost
principles state that to be allowable, costs must be authorized or not prohibited by State or local
laws or regulations (2 CFR part 225, Appendix A § C.1.c).




1
    “Covered Services, Limitations, and Exclusions for Personal Care Services” (Sept. 2005, Rev. June 2006).
2
 Changes in terminology were based on Rosa’s Law (Public Law 111–256). For more information, see CMS Final
Rule, 77 Federal Register 29002, 29021 & 29028 (May 16, 2012).
3
 OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments, was relocated to 2 CFR part
225.



                                                          2

Attachments 3.1-A.26 and 3.1-B.24.f of the Medicaid State plan4 provide for personal care
services in the recipient’s home, prescribed in accordance with a plan of treatment and provided
by a qualified person under supervision of a registered nurse. Supplement 2 to the Attachments
(section 24.f)5 established limits on personal care services and states that the initial determination
of need criteria for personal care services shall be based on the West Virginia Department of
Health and Human Resources’ Preadmission Screening for Nursing Facility and Community
Based Services (eligibility form).6

Audits of the State Agency’s Costs for Personal Care Services

This is the second report to address the State agency’s claims for Medicaid personal care
services. Our first report determined that the State agency generally complied with certain
Federal requirements for claiming personal care services under its Aged and Disabled Waiver
program.7

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with certain Federal and State
requirements when it claimed Medicaid personal care and nurse assessment and oversight
services under the State plan.

Scope

Our audit period covered July 1, 2008, through June 30, 2010. Our sampling frame consisted of
104,375 beneficiary-months totaling $82,918,496 ($67,387,046 Federal share) for services
rendered by 187 providers for personal care and nurse assessment and oversight services. Each
beneficiary-month consisted of detailed claim lines for each Medicaid personal care service and
nurse assessment and oversight service claimed for a beneficiary during the month. We
reviewed a random sample of these beneficiary-months. For this review, we excluded
beneficiary-months of personal care services paid under West Virginia’s Aged and Disabled
Waiver program, which we audited separately. We did not review the overall internal control
structure of the State agency or the Medicaid program. Rather, we limited our review to those
controls related to the objective of our audit.

4
  Attachment 3.1-A.26 and 3.1-B.24.f of the Medicaid State plan, amended effective October 1, 2009, provide
substantially similar eligibility requirements for personal care services. The applicable section for Attachment 3.1-
B.24.f is now section 26.
5
 Supplement 2 to the Attachments of the Medicaid State plan (section 24.f) was amended effective October 1, 2009.
The applicable section is now 26, which clarifies the previous requirements and included additional requirements for
personal care agencies.
6
    This form is also referred to as the Personal Care Medical Eligibility Assessment Form.
7
  West Virginia Complied With Certain Federal Requirements for Most of the Personal Care Services Claimed for
Its Aged and Disabled Waiver Program, (A-03-11-00205), issued June 8, 2012.


                                                           3

We performed our fieldwork at the State agency offices in Charleston, West Virginia, and at
various providers throughout the State of West Virginia in July and August 2011.

Methodology

To accomplish our objective, we:

   		 reviewed the applicable Federal and State statutes, regulations and guidelines and the
       State plan;

   		 held discussions with the State agency and Bureau of Senior Services officials to gain an
       understanding of the operation of the programs providing personal care services under the
       State plan;

   		 reconciled claimed costs for personal care services to the State agency’s accounting
       records;

   		 selected a simple random sample of 100 beneficiary-months from our sample frame of
       104,375 beneficiary-months of service as detailed in Appendix A;

   		 reviewed beneficiary files for the sample beneficiary-months of services to determine
       whether the documentation was sufficient to comply with Federal and State requirements
       and identified unallowable services;

   		 estimated, based on the sample results, the unallowable costs as shown in Appendix B;
       and

   		 discussed our findings with CMS and State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency did not comply with Federal and State requirements for some of the personal
care services and nurse assessment and oversight services in our sample. Of the 100 beneficiary-
months in our sample, 82 complied with Federal and State requirements, but 18 did not. Of the
18 noncompliant beneficiary-months, 3 contained more than 1 deficiency. The table summarizes
the deficiencies noted and the number of beneficiary-months that contained each type of
deficiency.




                                               4

                        Summary of Deficiencies in Sampled Beneficiary Months

                                                                                Number of
                            Type of Deficiency                              Beneficiary-Months8
              Services Not Supported By Documentation                                10
              Services Not In Accordance with Plan of Care                            7
              No Plan of Care                                                         1
              Personal Care Aide Not Qualified                                        1
              Beneficiary Not Eligible                                                1
              Beneficiary in a Nursing Home                                           1

The State agency did not sufficiently monitor personal care service claims submitted by
providers to ensure compliance with Federal and State requirements. As a result, some
beneficiary-months included deficiencies.

Using our sample results, we estimated that the State agency improperly claimed $360,539 in
Federal Medicaid reimbursement.

SERVICES NOT SUPPORTED BY DOCUMENTATION

Section 1902(a)(27) of the Act requires that Medicaid providers keep records necessary to fully
disclose the extent of the services provided to the beneficiary. Federal regulations (42 CFR
§ 431.17) require the State agency to maintain or supervise the maintenance of the records
necessary for the proper and efficient operation of the State plan. In addition, Federal
regulations (42 CFR § 455.1(a)(2)) require States to have a method to verify whether services
reimbursed by Medicaid were actually furnished to beneficiaries.

Section 517.16.8 of the Provider Manual requires that providers maintain personal care daily
logs completed by the personal care aides for the number of hours of personal care services. The
personal care daily logs identify the allowable tasks performed and are signed by the registered
nurse to document that the service was rendered according to the plan of care. Providers
maintain nurse notes logs completed by the registered nurses as part of their oversight function.

For 10 of the 100 beneficiary-months in our sample, the State agency claimed costs for personal
care services that were not support by the documentation:

      		 For 5 of the 10 beneficiary-months, the providers billed for more personal care service
          hours than supported by the personal care daily log.

      		 For 3 of the 10 beneficiary-months, the providers billed for personal care services for
          which the personal care daily log did not support that the service was rendered.




8
    The total exceeds 18 because 3 beneficiary-months contained more than 1 error.


                                                          5

       		 For 1 of the 10 beneficiary-months, the provider billed for a nurse assessment and
           oversight service for which the nurses’ notes log did not support that the service was
           rendered.

       		 For 1 of the 10 beneficiary-months, the provider billed for a nurse oversight service on a
           date for which the nurse notes log indicated that the beneficiary refused the personal care
           services and therefore the service was not allowable.

SERVICES NOT IN ACCORDANCE WITH PLAN OF CARE

Pursuant to section 1905(a)(24) of the Act, as implemented by Federal regulations (42 CFR
§ 440.167), the Medicaid State plan requires that personal care services be authorized by a
physician pursuant to a plan of care or, at the State agency’s option, otherwise authorized in
accordance with a service plan approved by the State agency.9 The Medicaid State plan also
requires that, in order to receive reimbursement for personal care services, the units of services
must be authorized in the approved plan of care.10

For 7 of the 100 beneficiary-months in our sample, the State agency claimed services that were
not in accordance with the beneficiaries’ authorized plans of care:

       		 For 4 of the 7 beneficiary-months, the providers billed for services that were not 

           authorized in the beneficiary’s plan of care.



       		 For 2 of the 7 beneficiary-months, the provider billed for more hours than authorized by
           the beneficiary’s plan of care.

       		 For 1 of the 7 beneficiary-months, the provider billed twice for 3 days of personal care
           services: for the services performed by one personal care aide and for a second personal
           care aide receiving training during the performance of the services.

NO PLAN OF CARE

Section 1905(a)(24)(A) of the Act, as implemented by Federal regulations (42 CFR § 440.167
(a)(1)), states that personal care services must be provided in accordance with a plan of care.
The Medicaid State plan states that a registered nurse must prepare the plan of care with the
eligibility form.11




9
 State plan amendment (SPA) 09-08, Attachment 3.1-A, Page 10; Attachment 3.1-B, Page 9; SPA 96-10,
Attachment 3.1-A, Page 10; SPA 01-17, Attachment 3.1-B, Page 9.
10
     SPA 09-08, Attachment 4.19-B, Page 15; SPA 01-17, Attachment 4.19-B, Page 15.
11
     SPA 09-08, Supplement 2 to Attachments 3.1-A and 3.1-B, page 13.



                                                        6

For 1 of the 100 beneficiary-months in our sample, the beneficiary file included only an expired
plan of care. We requested a plan of care effective for the beneficiary month, but the provider
did not produce one.

PERSONAL CARE AIDE NOT QUALIFIED

Pursuant to section 1905(a)(24) of the Act, as implemented by Federal regulations (42 CFR
§ 440.167), the Medicaid State plan requires that personal care services be “provided by an
individual who is qualified to provide such services ….”12 Section 517.7 of the Provider Manual
establishes the requirements for training individuals to provide personal care services. Personal
care aides must receive 8 hours of basic training before rendering care, 24 additional hours
within the first twelve months of employment, and 8 hours of training every year after the first
year of employment.13

For 1 of the 100 beneficiary-months in our sample, the provider did not verify that the personal
care aide had obtained the required additional 24 hours of training within the first year of
employment. In addition, there was no documentation to support that the personal care aide
received any training during the calendar year that included our beneficiary-month.

BENEFICIARY NOT ELIGIBLE

Pursuant to section 1905(a)(24)(A) of the Act, as implemented by Federal regulations (42 CFR
§ 440.167 (a)(1)), the Medicaid State plan limits personal care services to individuals who are
eligible based on the personal care needs criteria on the eligibility form signed by a physician.14

For 1 of the 100 beneficiary-months in our sample, the provider billed for services to a
beneficiary for whom the eligibility form showed that the beneficiary did not meet the personal
care needs criteria.

BENEFICIARY IN A NURSING HOME

Pursuant to section 1905(a)(24)(A) of the Act, as implemented by Federal regulations (42 CFR
§ 440.167 (a)(1)), the Medicaid State plan states that personal care services may not be furnished
to an individual who is an inpatient or resident of a hospital or a nursing home.15

For 1 of the 100 beneficiary-months in our sample, the provider billed for nurse oversight
services when the beneficiary was in a nursing home.



12
     SPA 96-10, Attachment 3.1-A, page 10; SPA 01-17, Attachment 3.1-B, page 9.
13
  For some of the basic training requirements, qualified individuals may substitute documentation of completing
comparable training (section 517.7.4 of the Provider Manual).
14
     SPA 01-17, Supplement 2 to Attachments 3.1-A and 3.1-B, Page 13.
15
     SPA 09-08, Attachment 3.1-A, Page 10; SPA 09-08, Attachment 3.1-B, Page 9.


                                                        7

ESTIMATE OF THE UNALLOWABLE AMOUNT

Of the 100 beneficiary-months in our random sample, 18 were not in compliance with Federal
and State requirements. Of the 18 noncompliant claims, 3 contained more than 1 deficiency.
Using our sample results, we estimated that the State agency improperly claimed $360,539 in
Federal Medicaid reimbursement. The details of our sample results and estimates are shown in
Appendix B.

The State agency did not sufficiently monitor personal care claims submitted by providers to
ensure compliance with Federal and State requirements. As a result, some beneficiary-months
included deficiencies.

RECOMMENDATIONS

We recommend that the State agency:

      refund $360,539 to the Federal Government and

      improve its monitoring of providers to ensure compliance with Federal and State
       requirements for personal care services.

STATE AGENCY COMMENTS

In its written comments on our report, the State agency concurred with our recommendation and
described corrective actions that it had taken or planned to take.

The State agency’s comments are presented in their entirety as Appendix C.




                                              8

APPENDIXES


               APPENDIX A: SAMPLE DESIGN AND METHODOLOGY


POPULATION

The population consisted of Medicaid paid claims for beneficiary-months of personal care
services and nurse assessment and oversight services for which the State agency claimed Federal
Medicaid reimbursement from July 1, 2008, through June 30, 2010 (audit period).

SAMPLING FRAME

The sampling frame consisted of 104,375 unique beneficiary-months of service totaling
$82,918,496 ($67,387,046 Federal share) for personal care services and nurse assessment and
oversight services that the State agency claimed during our audit period. A beneficiary-month
consists of all personal care services and nursing services claimed for a Medicaid beneficiary
during a month.

SAMPLE UNIT

The sample unit was a beneficiary-month submitted by a provider.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 beneficiary-months.

SOURCE OF RANDOM NUMBERS

We generated the random numbers using the Office of Inspector General, Office of Audit
Services (OAS), statistical software.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sampling frame. After generating 100 random numbers, we
selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate the amount of unallowable payments.
             APPENDIX B: SAMPLE RESULTS AND ESTIMATES


                                  Sample Results


                                                                           Value of
               Value of                      Value of                     Unallowable
                Frame                         Sample      Number of         Items
               (Federal                      (Federal     Unallowable      (Federal
Frame Size      Share)        Sample Size     Share)        Items           Share)
 104,375      $67,387,046        100          $60,176         18            $1,627



             Estimated Value of Unallowable Items (Federal Share)
             (Limits Calculated for a 90-percent Confidence Interval)

             Point Estimate                                  $1,697,751
             Lower Limit                                       $360,539
             Upper Limit                                     $3,034,964
                                                                                       Page 1 of 2
                          APPENDIX C: STATE AGENCY COMMENTS




                                        STATE OF WEST VIRGINIA 

                      DEPARTMENT OF HEALTH AND HUMAN RESOURCES 

Earl Ray Tomblin 	                      Bureau for Medical Services
                                    Home and Community-Based Services               Rocco S. Fucillo
   Governor                                                                         Cabinet Secretary
                                       350 Capitol Street - Room 251 

                                   Cbarleston, West Virginia 25301-3706 

                               Telepbone: (304) 558-1700 Fax: (304) 558-1451 


                                           September 12,2012

    Mr. Stephen Virbitsky 

    Regional Inspector General for Audit Services 

    Office of Inspector General 

    150 S. Independence Mall West, Suite 316 

    Philadelphia, Pennsylvania 19106-3499 


            Re: West Virginia Did Not Properly Claim Some Personal Care Services Under Its
            Medicaid State Plan for the Period July 1, 2008 through June 30, 2010, Report Number:
            A-03-11-00204

    Dear Mr. Virbitsky:

            The West Virginia Department of Health and Human Resources and the Bureau for
    Medical Services (Bureau), the single State agency, offers the following response to the draft
    report entitled "West Virginia Did Not Properly Claim Some Personal Care Services Under Its
    Medicaid State Plan for the Period July 1, 2008 through June 30, 2010, Report Number: A-03­
    11-00204:

            On page 1 of the draft report, it erroneously says "The Personal Care Program,
    managed by the Department of Health and Human Resources' Bureau of Senior Services,
    provides personal care services for the elderly and for disabled individuals." The Bureau of
    Senior Services is not a Bureau of the Department of Health and Human Resources. The
    Department of Health and Human Resources, Bureau for Medical Services, contracts with the
    Bureau of Senior Services to serve as the operating agency. The Bureau of Senior Services
    reports directly to the Office of the Governor.

    Recommendations:


        1. 	 Refund $360,539 to the Federal Government.

        The State concurs with the OIG's finding to refund $360,539 to the Federal Government.

        2. 	 Improve its monitoring of providers to ensure compliance with Federal and State
             requirements for personal care services.
                                                                                       Page 2 of 2



    Mr. Stephen Virbitsky 

    September 12,2012 

    Page 2 



        The Bureau for Medical Services is currently in the process of rewriting its Personal
    Care Policy Manual to improve compliance with Federal requirements. Some of the
    activities which the State anticipates will improve compliance are:

        a. 	 All Personal Care Services will be pre-authorized by a third part vendor. For
             services 60 hours or less per month, an RN will check the assessment tool to
             ensure the person has the three deficits needed in order to participate in the
             program. For 60 plus hours an RN will review the assessment and all medical
             information to ensure the person needs the additional hours of services.

        b. 	 A representative random sample of member charts will be reviewed annually to
             ensure all required documentation is in member files, that the Plan of Care is being
             followed, that the member is eligible for the service, etc. Currently, the review cycle
             has been between 48 and 36 months.

        c. 	 Personal Care providers will have to electronically submit an affidavit stating all of
             their employees have the licenses, certifications, training and background checks,
             etc. they need in order to provide services under the Personal Care Program. They
             will report on 100% of their employees annually. In addition, there will be random
             checks to verify the providers reporting on these requirements.

        It is anticipated the new Personal Care Policy Manual will go into effect in early 2013.
Prior to the new Policy Manual going into effect, the Bureau for Medical Services and the
Bureau of Senior Services will conduct training with providers and will stress the importance of
proper documentation.

      Should you have any further questions, please contact Penney Hall, Program Manager,
Aged and Disabled Waiver and Personal Care Services, at 304-356-4872.

                                               Sincerely,

                                                       tWS y.~
                                                      V. Atkins, RN , MSN, NP-BC
                                                      issioner

cc: 	   Rocco Fucillo, Cabinet Secretary, DHHR
        Warren Keefer, Deputy S-ecretary for Administration, DHHR_
        Robert Roswall, Commissioner, Bureau of Senior Services
        Cynthia Beane, Deputy Commissioner - Policy
        Tina Bailes, Deputy Commissioner - Finance
        Penney Hall, Program Manager
